<html>
<title> - FROM LAB TO MARKET: A REVIEW OF NSF INNOVATION CORPS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                          FROM LAB TO MARKET: 
                    A REVIEW OF NSF INNOVATION CORPS

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2017

                               __________

                           Serial No. 115-40

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-679PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2047504f604355535448454c500e434f4d0e">[email&#160;protected]</a>       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
DARIN LaHOOD, Illinois               SUZANNE BONAMICI, Oregon
RALPH LEE ABRAHAM, Louisiana         AMI BERA, California
DANIEL WEBSTER, Florida              DONALD S. BEYER, JR., Virginia
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
LAMAR S. SMITH, Texas
                            C O N T E N T S

                            December 6, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     4
    Written Statement............................................     5

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     7
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives                                                 11
    Written Statement............................................    12

                               Witnesses:

Dr. Dawn Tilbury, Assistant Director, Directorate for 
  Engineering, National Science Foundation
    Oral Statement...............................................    14
    Written Statement............................................    16

Mr. Steve Blank, Adjunct Professor, Management Science and 
  Engineering, Stanford University
    Oral Statement...............................................    23
    Written Statement............................................    25

Dr. Dean Chang, Associate Vice President, Innovation and 
  Entrepreneurship, University of Maryland; Lead Principal 
  Investigator, DC I-Corps Regional Node
    Oral Statement...............................................    32
    Written Statement............................................    35

Dr. Sue Carter, Professor, Department of Physics, Director, 
  Center for Innovation and Entrepreneurial Development, 
  University of California, Santa Cruz
    Oral Statement...............................................    39
    Written Statement............................................    42

Discussion.......................................................    46

             Appendix I: Answers to Post-Hearing Questions

Dr. Dawn Tilbury, Assistant Director, Directorate for 
  Engineering, National Science Foundation.......................    62

Dr. Dean Chang, Associate Vice President, Innovation and 
  Entrepreneurship, University of Maryland; Lead Principal 
  Investigator, DC I-Corps Regional Node.........................    67

Dr. Dean Chang, Associate Vice President, Innovation and 
  Entrepreneurship, University of Maryland; Lead Principal 
  Investigator, DC I-Corps Regional Node.........................    68

Dr. Sue Carter, Professor, Department of Physics, Director, 
  Center for Innovation and Entrepreneurial Development, 
  University of California, Santa Cruz...........................    69

 
                          FROM LAB TO MARKET:
                    A REVIEW OF NSF INNOVATION CORPS

                              ----------                              


                      Wednesday, December 6, 2017

                  House of Representatives,
            Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Comstock. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Good morning, and welcome to today's hearing entitled 
``From Lab to Market: A Review of NSF Innovation Corps,'' I-
Corps. I now recognize myself for five minutes for an opening 
statement.
    The purpose of today's hearing is to review the National 
Science Foundation's I-Corps program and its goals of preparing 
scientists and engineers to extend their research from lab to 
market. The hearing will examine the successes and challenges 
of the I-Corps program, and the Committee will hear 
recommendations for the future of I-Corps and its role in the 
innovation ecosystem.
    In research labs today are the seeds for breakthroughs in 
new fields like quantum computing, artificial intelligence, and 
bioengineering, breakthroughs that will continue to transform 
our lives and the world we live in. Many scientists and 
engineers are not trained for commercializing those ideas 
because most did not go to business school or take any business 
development classes as part of their training. So how do we 
give them the tools to be successful entrepreneurs? How do we 
help scientists and engineers turn their innovations into 
products and services?
    In 2011, NSF established I-Corps to help fill that need. I-
Corps is a National Innovation Network of eight nodes across 
the country, which connect academic researchers with the 
private sector and trains them to be entrepreneurs. NSF funds 
teams of researchers to go through a seven-week I-Corps 
curriculum that provides a real-world, hands-on, immersive 
learning experience. Today, I-Corps is taught at 86 colleges 
and universities in the United States, and over 1,000 teams 
have been through the program.
    I welcome Dr. Dawn Tilbury, the new Assistant Director for 
Engineering at NSF, to discuss what NSF has learned from over 
five years of running the program and collecting data and 
information.
    We are also fortunate to have Mr. Steve Blank on the panel, 
the architect of the NSF I-Corps curriculum. He will explain 
how his approach trains scientists and engineers to be 
entrepreneurs in a short period of time, and his vision for the 
future of I-Corps.
    We also have on the panel Dr. Dean Chang from the DC. Area 
I-Corps node to discuss the innovation ecosystem in the 
Virginia, Maryland, and DC. region. The 10th District--the 10th 
Congressional District which I represent has a robust and 
growing technology sector, while Virginia, D.C., and Maryland 
boast some of the top research universities in the country. I 
look forward to learning how I-Corps contributes to building 
connections between academic researchers and the private sector 
to create more companies and more jobs.
    Finally, I look forward to hearing from Dr. Sue Carter on 
her experience participating in three I-Corps teams and 
creating successful companies.
    Through research and activities like I-Corps supported by 
NSF, we have the opportunity to boost our economy, enhance our 
national security, strengthen our cybersecurity infrastructure, 
and create a STEM-job-ready workforce, not a small task, and we 
appreciate your role in all of that.
    [The prepared statement of Chairwoman Comstock follows:]
   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. And I now recognize the Ranking 
Member, the gentleman from Illinois, Mr. Lipinski, for his 
opening statement.
    Mr. Lipinski. Thank you, Chairwoman Comstock, for--and 
Chairman Smith for holding this hearing. It's a hearing that I 
have been wanting to have for a number of years. I'm glad that 
we've got here. And as everyone knows, I've spent a lot of time 
on this committee talking about the Innovation Corps or I-
Corps, so I'm very pleased to be holding this hearing, the 
first one we had since we had a field hearing in Chicago back 
in 2012 on I-Corps.
    I'd like to think the 2012 hearing helped to win over some 
of my more skeptical colleagues at that time. The program was 
in infancy back then in the summer of 2012, having been 
launched by NSF in 2011. Now, we are seven years in and the 
program has not just grown and expanded at NSF, it has been 
adopted and adapted by several other agencies including NIH, 
DOE, and even DOD.
    While I help to build support in Congress to see I-Corps 
funded and expanded, agency, university, and national lab 
leaders alike embraced the potential and worked hard to 
implement it as effectively as possible. As a result, we are 
starting to see exactly the kind of outcomes that we hoped for 
back in 2012. Over 1,000 companies have completed a national I-
Corps course, and we're seeing many of the alumni go on to 
start successful businesses.
    There are some notable research institutions who started 
creating a culture of entrepreneurship decades ago such as MIT 
and Stanford. There are many more universities both public and 
private that have actively sought to learn from and implement 
many of the best practices from those pioneering universities. 
Unfortunately, many of them have had a hard time securing the 
funding and the right expertise to successfully undertake these 
efforts. There are also some institutions of higher learning 
that have simply not made this a priority. We know that 
institutional culture is a hard thing to overcome.
    Our world-class research institutions around the Nation 
excel at conducting cutting-edge research and educating the 
next generation of scientists and engineers. There is fear 
among some that promoting entrepreneurship would compromise the 
important basic research mission of the institutions. I believe 
there's plenty of evidence to the contrary. It is clear that 
students and faculty across the country are eager to see the 
research breakthroughs further developed into commercial 
products and processes for the benefit of society and our 
economy.
    In addition, because we now graduate far more Ph.D.'s than 
we have faculty jobs, entrepreneurship provides a viable career 
option for the more than 50 percent of Ph.D.'s who will not be 
able to pursue academic careers.
    With a very modest investment, I-Corps helps address the 
lack of funding from the private sector to develop 
entrepreneurial capacity at institutions of all sizes and 
types. It also helps to strengthen the SBIR program, shift 
institutional culture, and ultimately pay the American 
taxpayers back many times over in the form of commercialized 
products that would otherwise collected dust on a laboratory 
shelf.
    By the end of an I-Corps course, participants make the go/
no-go decision. Those that decide to go or to start a company 
have some market research to back up their decision. And those 
that either pivot to a new idea or choose no-go save themselves 
the effort of starting a company that would have been likely to 
fail.
    Just a few examples of companies that have developed from 
teams that participated in I-Corps training at the University 
of Chicago in recent years are Conduit, a company that speeds 
up the development and improves the quality of software for 
Internet of Things devices; Qualia Health, which makes a health 
assessment and monitoring app; and ClostraBio, which is 
developing therapeutics to combat food allergies. These 
companies are all making very real contributions to our 
economy, job market, and well-being, and these are only from 
one site out of many around the country.
    I remain a committed champion of this program and never 
cease to be amazed by how successful it has been and continues 
to be, but we can't rely on past successes to keep I-Corps 
strong into the future, so I plan to introduce new legislation 
very soon to expand upon the I-Corps authorities already in 
law. My bill, the Innovators to Entrepreneurs Act, will open up 
I-Corps courses to participation by many more entrepreneurs 
than are currently taking advantage of them. Currently, the 
nodes that teach these courses are operating below capacity, 
which is a missed opportunity both for their faculty and for 
the companies that could be taking advantage of their training. 
My bill will also direct NSF to offer a new course that goes 
beyond the current I-Corps curriculum to focus on how to 
attract investors and grow a business.
    Since 2011, we have learned that the I-Corps curriculum 
does a great job of teaching aspiring entrepreneurs how to do 
customer discovery and vet their ideas, but once they decide to 
start a company and begin the commercialization process, it 
doesn't teach them how to take the next steps like how to 
develop financial projections and build a winning team.
    Some of the same visionaries who developed the current I-
Corps curriculum recognize this need and developed a new pilot 
course they've been calling I-Corps Go. The results so far have 
been promising, and demand for this type of training is high. 
Therefore, my bill directs NSF to develop I-Corps Go into an 
official I-Corps course and to offer it nationally to 
interested companies through the nodes that offer the current 
curriculum. I hope my colleagues will take a look at my bill 
and agree to cosponsor it.
    I also want to make sure that I mention the great job that 
NSF has done with I-Corps over these years and the work that 
they continue to do, and I want to welcome Dr. Tilbury in as 
leading the Engineering Directorate, so it's good to have you 
there at NSF in this position. I look forward to our discussion 
and yield back.
    [The prepared statement of Mr. Lipinski follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you. And I now recognize Ms. 
Johnson for her opening statement.
    Ms. Johnson. Thank you very much, Chairwoman Comstock, and 
good morning. I appreciate you holding for this hearing, and 
thank you for the expert witnesses for being here this morning 
to share their insights with us.
    The research carried out at our nation's universities and 
national laboratories creates the foundation upon which our 
entire innovation economy is built. However, in order to 
benefit society, the science must find a way out of the 
laboratory. These societal benefits may be varied. Science 
itself across all fields serves as inspiration for the public 
and a tool for educating the next generation of scientists and 
engineers.
    Science can also be used to strengthen our national 
security or to inform better and more effective policies for 
the public good. However, sometimes a scientific development 
holds the promise of new commercial products or process and 
that is where the National Science Foundation Innovation Corps, 
or I-Corps, programs have the biggest role to play.
    Unfortunately, the path from the laboratory to the market 
has rarely been smooth or easy. While the challenges are 
sometimes technical, they often are cultural and financial. 
Scientists and engineers trained to be academics speak a very 
different language than business people. Too often, as we will 
hear in today's testimony, this leads to researchers spending 
extensive time and money developing technologies that nobody 
wants to buy. Even when the idea has a well-defined customer, 
the private sector may be unwilling to invest until the concept 
is more fully developed.
    Over the last several years, the National Science 
Foundation has been a leader in addressing the cultural 
barriers impeding commercialization while also making small 
investments in the proof-of-concept work. The I-Corps program 
stands out as an example of the excellent return we can achieve 
on a modest investment when we implement and scale-up proven 
practices.
    The--when NSF launched I-Corps in 2011, some of my 
colleagues were skeptical about the need or the appropriateness 
of having this program at NSF. Many in the university community 
were concerned that the program might harm NSF's core research 
mission. I believe there has been a sea change in the response 
from the university community that reflects the pent-up demand 
from researchers, the dedication of NSF staff, and the clear 
benefits of this program. So as a result, this is one little 
program that may be helping to transform the entrepreneurial 
culture at universities well beyond their initial expectations.
    I hope my colleagues also see the benefit of this program 
and remain committed to supporting it, and I hope my colleagues 
also remain committed to supporting the long-term foundation of 
U.S. science and technology by continuing to invest in our 
research agencies, including NSF. I look forward to today's 
discussion, and I yield back the balance of my time.
    [The prepared statement of Ms. Johnson follows:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you. I'll now introduce our 
witnesses today. Our first witness is Dr. Dawn Tilbury, 
Assistant Director for the Directorate for Engineering at NSF. 
She joined NSF in June while maintaining her appointment as 
professor of electrical engineering and computer science at the 
University of Michigan. A professor at Michigan since 1995, her 
research interest is in the area of control systems, including 
applications to robotics and manufacturing systems. She 
received a Bachelor's of Science degree in Electrical 
Engineering from the University of Minnesota, as well as a 
Master's of Science and Ph.D. in Electrical Engineering and 
Computer Sciences from the University of California Berkeley.
    Mr. Steve Blank, I now recognize Mr. Lipinski to introduce 
his--this witness.
    Mr. Lipinski. Thank you. Steve Blank is an adjunct 
professor at Stanford University, a lecturer at the University 
of California at Berkeley, and a senior fellow at Columbia 
University, but he is perhaps better known as one of the 
godfathers of Silicon Valley for his prolific blog and books on 
innovation, entrepreneurialism, and how to run a startup, 
including The Four Steps to the Epiphany and The Startup 
Owner's Manual. Going back a second to the blog SteveBlank.com, 
I recommend The Secret History of Silicon Valley for everyone 
to take a look at the role that the government played in really 
creating Silicon Valley that a lot of people don't know about.
    Steve has won numerous awards, including honors for his 
teaching at Stanford and Berkeley and appears on a Thinkers50 
list of the world's top management thinkers for several years 
running.
    Steve helped develop I-Corps, drawing on the principles of 
the Lean Startup movement, which he helped launch in Silicon 
Valley. He has since started other innovation and 
entrepreneurship programs, including Hacking for Defense, which 
was federally authorized in fiscal year 2018 NDAA bill and 
works to solve urgent problems for the Department of Defense 
and intelligence community.
    Through his work with the armed services intelligence 
agencies he has helped advance the concept of dual-use 
products, those that may be developed for defense applications 
but can also be sold commercially and attract private capital.
    Steve hails from Pescadero, California. It's good to have 
him here today.
    Chairwoman Comstock. Thank you.
    And now our next witness is Dr. Dean Chang, Associate Vice 
President for Innovation and Entrepreneurship at the University 
of Maryland and Lead Principal Investigator of DC. I-Corps.
    Prior to joining UMD, Dr. Chang spent 15 years in Silicon 
Valley where he served as the Chief Technology Officer of 
Immersion Corporation. He holds over 40 U.S. and international 
patents.
    Dr. Chang earned his Bachelor's degree in Mechanical 
Engineering from MIT, a Master's in Business Administration 
from the Wharton School at the University of Pennsylvania, and 
his Ph.D. in Mechanical Engineering from Stanford.
    Dr. Sue Carter is our final witness, and she is professor 
of physics and Director of the Center for entrepreneurship at 
the University of California Santa Cruz. She also serves as the 
Director of the NSF I-Corps site in Santa Cruz.
    Previously, she worked as a research staff member at 
several companies and served as the Chief Technical Advisor and 
scientific founder at four startups. Dr. Carter holds six 
patents and one patent pending. Her research focuses on film 
technologies, biosensors, solar energy, and agriculture 
technology.
    Dr. Carter earned a Bachelor of Arts in Mathematics, 
Chemistry, and Physics from Kalamazoo College and a Ph.D. in 
Chemistry from the University of Chicago.
    I now recognize Dr. Tilbury for five minutes to present her 
testimony.

                 TESTIMONY OF DR. DAWN TILBURY,

                      ASSISTANT DIRECTOR,

                  DIRECTORATE FOR ENGINEERING,

                  NATIONAL SCIENCE FOUNDATION

    Dr. Tilbury. Chairwoman Comstock, Ranking Member Lipinski, 
and Ranking Member Johnson, Members of the Subcommittee, thank 
you for inviting me to participate in today's hearing on the 
National Science Foundation's Innovation Corps or I-Corps. My 
name is Dawn Tilbury, and as mentioned, I'm the Assistant 
Director for Engineering at NSF.
    The NSF I-Corps program started through the convergence of 
several trends in the economy in the understanding of startup 
formation and through NSF's experience with seeding startups 
through the SBIR and STTR programs.
    I-Corps was adapted from Steve Blank's Lean Launchpad 
course at Stanford University. Steve's course provided Lean 
Startup training to NSF scientists and engineers so they could 
quickly determine whether their technology or product had 
commercial potential. I'm very pleased to see Steve here today. 
Thank you for your leadership and support of this important 
program.
    I'm also pleased to see Dr. Dean Chang from the University 
of Maryland, D.C., and Virginia node and Dr. Sue Carter from 
the University of California Santa Cruz. You'll hear from them 
shortly.
    The purpose of I-Corps is to accelerate U.S. innovation. It 
leverages results from fundamental science and engineering 
research into translational activities of potential commercial 
and societal benefit. I-Corps helps scientists and engineers 
gain entrepreneurial skills and identify valuable product 
opportunities that can emerge from academic research.
    Each I-Corps team has a technical lead, an entrepreneurial 
lead, and an I-Corps mentor. During their intensive training, 
the I-Corps teams determine whether they have a viable product 
or service with a fit in the market. At the end of the 
training, if the answer is yes, teams have a clear 
understanding of the next steps to move their technology into 
the marketplace. Those steps could be to pursue licensing their 
technology or to launch a startup.
    By addressing the challenges inherent to the early stages 
of the innovation process, NSF investments strategically 
strengthen the innovation ecosystem in the United States. To 
help accomplish this, we draw on many partners in that 
ecosystem. Academic institutions play a critical role in I-
Corps, as does the private sector. Technology developers, 
business leaders, venture capitalists, and experienced 
entrepreneurs serve as mentors, sharing their knowledge and 
expertise with the I-Corps teams. This network enhances the 
ability of NSF-supported researchers and their students to turn 
scientific results into potentially successful technologies.
    Since our first cohort of 21 teams in 2011, the program has 
expanded across the country. I-Corps now has eight regional 
nodes involving 28 universities and 86 sites that provide 
infrastructure, resources, networking, and training to move 
scientific discoveries from university labs into the 
marketplace. The I-Corps model has been adopted by nine other 
federal agencies and the State of Ohio. The national I-Corps 
curriculum has trained more than 1,000 teams to date. More than 
450 of these NSF I-Corps teams have created startups.
    Although I-Corps constitutes far less than one percent of 
the NSF annual budget, recent data shows that I-Corps teams 
have collectively raised over $250 million in seed capital. For 
the team members, it has been truly transformational to think 
in a more entrepreneurial way.
    I-Corps is a way to unlock the economic potential of 
creative ideas in American colleges and universities generated 
by NSF investments. To lay the groundwork for future expansion, 
NSF has two pilot programs underway. First, we are funding 
eight I-Corps sites to increase participation and promote 
inclusion of underrepresented populations in entrepreneurship. 
These sites will pilot novel approaches and partnerships to 
engage differently abled individuals, first-generation college 
students, racial and ethnic minorities, and women, as well as 
minorities-serving institutions.
    Second, in collaboration with the NSF, SBIR, and STTR 
programs, we launched the I-Corps for Phase Zero pilot. This 
pilot supports nonacademic teams that are developing game-
changing technologies. The Phase Zero teams receive national I-
Corps training and participate in a follow-on curriculum called 
I-Corps Go that addresses some of the more common issues in 
startup formation.
    As we look to I-Corps' next five years, we see continued 
urgency and motivation for the program. Several studies suggest 
that U.S. startup rates have not fully recovered from the Great 
Recession. With NSF-supported researchers continually creating 
and developing cutting-edge technology, we see the I-Corps 
program as a key tool to help with our broader goals to 
increase American innovation.
    Thank you for your interest in this program and for giving 
me the opportunity to speak. Thank you.
    [The prepared statement of Dr. Tilbury follows:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you. And now, we'll hear from 
Mr. Blank.

                 TESTIMONY OF MR. STEVE BLANK,

                       ADJUNCT PROFESSOR,

              MANAGEMENT SCIENCE AND ENGINEERING,

                      STANFORD UNIVERSITY

    Mr. Blank. Thank you, Chairwoman Comstock, and thank you, 
Ranking Member Lipinski and Ranking Member Johnson. Thank you 
for inviting me to participate in this hearing.
    Six years ago, the NSF recognized that scientists who 
received government commercialization grants were having a real 
hard time getting to the next step of raising private capital. 
And so the genesis of this I-Corps program is pretty simple. 
First, figure out why this was. Why were scientists having a 
hard time getting private capital, and why are they having a 
hard time building successful companies? And once we figured it 
out, then can we teach them the skills that they were missing?
    And it soon became apparent that they were having a hard 
time raising money is that the scientists simply couldn't speak 
the language of private capital investors. University 
scientists believe that just having innovative technology was 
enough to make a successful business. The reality is that's 
just plain wrong. Great technology is just one part of a 
successful company. Private investors, venture capitalists, and 
angel investors needed to hear more than just the technology.
    To speak to VCs or angel investors, scientists needed to 
learn things that weren't in their Ph.D. program. They needed 
to figure out how to turn their innovations in the lab into 
product that people actually wanted to buy. They had to figure 
out who their customers were going to be and how the product 
would be sold. They needed to talk to regulators and understand 
patents and licensing issues and understand how to create 
customer demand. How much would it cost to make their product 
and how many would they sell and what price?
    In the past, when a scientist started a company, they'd 
write up all these answers to these questions, put it in a 
business plan, hire the people, build the product, and only 
find out years later into the company that their assumptions, 
their guesses what the customer wanted were wrong.
    Now, I-Corps starts with the premise that, on day one, all 
an entrepreneur has is a series of untested hypotheses, which 
is a fancy word for they're just guessing, about each part of 
their business. We teach I-Corps in a way that's pretty 
extraordinary. When we teach scientists all the theory about 
starting a company, we also make them get their hands dirty by 
having them get out of their labs and test their hypothesis by 
talking to 10 to 15 customers a week. And they use the feedback 
from those customers to improve multiple versions of their 
product. By the time the class is over they've talked to over 
100 people. We now know the I-Corps method of teaching 
scientists to get out of the building and talk to people turns 
theorists into capitalists.
    And our scientists actually love this I-Corps learning 
process because what they're doing is actually running the 
scientific method, this time with potential customers rather 
than test tubes in a lab. So when you hear the phrase ``I-Corps 
is a bridge to private capital,'' you know that means that we 
teach our best scientists to learn a new set of skills that 
help them raise money to build companies. And these are 
companies that could create not just new products but new jobs, 
and not just in Silicon Valley but in districts like yours.
    Now, having spent 21 years building companies, my first 
instinct was this type of education should be done by existing 
private incubators and accelerators, not the government. 
However, our observation six years ago is still true today. 
While the NSF-funded technologies can turn into future 
companies, most don't fit the model of grow into a billion-
dollar valuation in three years that private incubators and 
accelerators are looking for.
    The teams that I-Corps teaches require the patience and the 
long-term vision that the NSF brings. NSF-funded scientists and 
engineers are working on what we call deep tech, really long-
term, geeky technology like new material, new devices outside 
of the mainstream of social media and smartphone apps. Yet for 
our country, turning these innovations in a products might have 
the biggest payoff.
    We now know that, without I-Corps training, most of our 
advanced technologies would never turn into companies. There's 
one other thing about these deep technologies that's becoming 
more evident. Many are potentially dual-use technologies, 
meaning they have potential commercial companies, but their 
products can be also used for the Department of Defense and our 
intelligence community to keep our country safe and secure.
    So America is better for having I-Corps. It's made turning 
our government-funded science into companies more efficient. We 
should do more of I-Corps. We can make it broader and better, 
reaching more people and teaching more skills. First, keep in 
mind that, today, I-Corps is for university scientists funded 
by the NSF, but if you're outside a university, you can't take 
this class, and that's a shame. Since we now know we have an 
effective program, we ought to share it with all Americans, not 
just the few in universities. We ought to open the I-Corps to 
innovators and entrepreneurs who have ideas in every part of 
the country whether they're in a university or a garage that 
aren't yet ready for private capital.
    The second way to make I-Corps better is to improve on what 
we've learned over the last six years. One of our biggest 
learnings is that even after teams have been through the I-
Corps, they need to learn additional skills like how to hire 
and build teams that know how to sell and market the product, 
how to grow in scale a company, and how to find investors who 
want deep technology. NSF is currently testing this follow-on 
class, as you've heard, called I-Corps Go.
    I hope everyone in this Committee is proud of the I-Corps 
program that you've created and supported. It's one of the 
programs that continues to make America great. Thank you.
    [The prepared statement of Mr. Blank follows:]
  
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you. I now recognize Dr. Chang.

                  TESTIMONY OF DR. DEAN CHANG,

                   ASSOCIATE VICE PRESIDENT,

                INNOVATION AND ENTREPRENEURSHIP,

                    UNIVERSITY OF MARYLAND;

                  LEAD PRINCIPAL INVESTIGATOR,

                    DC I-CORPS REGIONAL NODE

    Dr. Chang. Good morning, Chairwoman Comstock, Ranking 
Members Johnson and Lipinski, and distinguished Members of the 
House Science Subcommittee. I'm greatly appreciative of the 
opportunity to testify and engage in a discussion with all of 
you about the NSF I-Corps program.
    My name is Dean Chang. Sometimes it helps if I clarify that 
Dean is my name, not my title. I'm the Associate V.P. for 
Innovation Entrepreneurship at the University of Maryland. And 
we've already heard from my fellow witnesses about the lab-to-
market impact that I-Corps has had. So as a Lead Principal 
Investigator for the NSF I-Corps node for the D.C., Maryland, 
and Virginia area--we like to call it the DMV node--I'd like to 
use my five minutes to highlight two specific areas of impact 
of I-Corps.
    Area number one, the impact of I-Corps on the regional and 
national level; and area number two, the impact of I-Corps on 
undergraduate education. Area number one, NSF has created a 
National Innovation Network with eight I-Corps nodes across the 
country. What is a node, you might ask? Well, nodes are 
basically charged with rallying and marshalling together the 
many universities, investors, entrepreneurs, and industries in 
our geographic regions and getting everyone to work together as 
one. It's my observation that this has been one of the 
hallmarks and most impactful contributions of the NSF I-Corps 
program. In the past, critical startup knowledge of what worked 
and what didn't often lived in the heads of a few expert 
individuals. Most universities didn't have easy access to these 
individuals, and that's really all changed now with I-Corps 
nodes.
    Here in the DMV node we have built up a strong bench with 
over a dozen I-Corps instructors from University of Maryland, 
Johns Hopkins, Virginia Tech, George Washington, Howard 
University. Once or twice a year, NSF sends us about 25 teams 
for the national I-Corps training, but the rest of the year our 
dozen I-Corps instructors continue to teach in various versions 
of the I-Corps program throughout the region to 200 teams each 
year and these--those instructors even travel to other schools 
to provide this I-Corps training to teams from George Mason, 
from University of Virginia, Virginia Commonwealth, Morgan 
State, and even outside the DMV to schools in Pennsylvania and 
North Carolina.
    This means that a team from just about any school in our 
region can get access to any instructor from our node. For 
instance, if you're a team from Morgan State, you now have 
access to our instructor from Johns Hopkins, who specializes in 
life sciences; our instructor from Maryland, who specializes in 
virtual-reality, augmented reality, and UAVs; our instructor 
from Virginia Tech, who specializes in DOD-funded companies; or 
our instructor from George Washington, who specializes in 
international markets.
    And this picture I paint for our DMV node is the same at 
the other nodes as well. In the Midwest, the University of 
Michigan collaborates with Purdue and University of Illinois 
and other schools in that region. In the Southeast, Georgia 
Tech does the same with Universities of Alabama and Tennessee 
and other schools in their region. And the same for the nodes 
in the Northeast, the West Coast, the Southwest. So this 
National Innovation Network of nodes created by NSF really has 
an ``all for one and one for all'' sense of community across 
the regions and across the country.
    Area number two, the curriculum and methods in the national 
I-Corps training are also widely being integrated--being widely 
integrated into undergraduate education. At the University of 
Maryland, key components of I-Corps training have been 
incorporated into over 50 courses reaching over 7,000 students 
each year. One of those classes is the senior capstone course 
in bioengineering in which students spend the year working with 
doctors to design medical devices. Before incorporating I-Corps 
into the course, some beautiful devices were designed and 
manufactured with little regard to validating a business model. 
Now, the students spend time in customer discovery and learn 
how improved health care also requires purchasing, 
reimbursement, regulatory, and other issues be part of any 
successful business model.
    Two students in the course, Shawn Greenspan and Stefanie 
Cohen said, quote, ``I-Corps finally put us on the road to real 
customer discovery. Our initial business plan started with an 
incorrectly identified buyer, value propositions that were 
wrong, and guesses everywhere else. Fortunately, after 67 
interviews, we now have a developing revenue model. We still 
lots of work to do, but we now know where our answers lie: 
outside the building.''
    Shawn is now working at Palantir Technologies, and Stefanie 
works for a spinal surgical implant company, and both Shawn and 
Stephanie site I-Corps as a formative experience that gave them 
the essential skills to be able to accelerate technology into 
the market, skills that they are both using in their jobs 
today. Many of the over 100 colleges teaching I-Corps have 
similar stories of the impact I-Corps is having on 
undergraduate education.
    In conclusion, I-Corps has created a significant culture 
change across campuses both among students as well as faculty. 
Faculty who go through the national I-Corps training get 
connected to the tremendous resources of the National 
Innovation Network and come back eager to apply I-Corps 
principles to their entire research portfolio, as well as to 
their teaching. That in turn better prepares and better equips 
students to make an impact on the economy and in society, 
whether it be at a startup, at a large company, or even at a 
nonprofit or in government.
    Lastly, one of the things that made I-Corps so successful 
has been the flexibility for I-Corps nodes to experiment and 
innovate with the I-Corps program itself. In I-Corps we push 
scientists to go beyond their comfort zone to find the 
unexpected opportunities, so we need to continue to push 
ourselves out of our comfort zone to keep making I-Corps 
better. Thank you.
    [The prepared statement of Dr. Chang follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you, Dr. Chang.
    And now, we'll hear from Dr. Carter.

                  TESTIMONY OF DR. SUE CARTER,

               PROFESSOR, DEPARTMENT OF PHYSICS,

                DIRECTOR, CENTER FOR INNOVATION

                AND ENTREPRENEURIAL DEVELOPMENT,

              UNIVERSITY OF CALIFORNIA, SANTA CRUZ

    Dr. Carter. Thank you. Chairwoman Comstock, Ranking Member 
Lipinski and Johnson, and Members of the Subcommittee, it's an 
honor to appear before you today. My name is Sue Carter, and I 
am a three-time participant in the NSF I-Corps program and 
currently run the NSF I-Corps site at the University of 
California Santa Cruz.
    In addition, I'm a physics professor who has transitioned 
basics research out of the lab into startup companies three 
times. Consequently, I can provide you my experience with NSF 
I-Corps as a student and teacher of the curriculum and as a 
faculty member and entrepreneur.
    The strength of NSF I-Corps program is that it pushes 
researchers to get out of the lab and into the community to 
talk to potential customers, enabling them to better understand 
the societal value or lack thereof that their research has. For 
me as a faculty member, the insight has resulted in doing much 
more impactful applied research. Similarly, as an entrepreneur, 
the NSF I-Corps program has resulted in me spending 
substantially less time and money to get a product to market.
    Let me provide some--a few concrete examples. I have been a 
principal at four startup companies: Add-vision, Solexant, 
Soliculture, and the IRIS Science Academy. The first two 
companies are before I had NSF I-Corps training, and the last 
two are after I went through NSF I-Corps training. At Add-
vision, we raised over $6 million in funding both from 
strategic partners and government grants. We used this funding 
to develop a printable organic light emitting diode technology 
to meet commercial specs given to us by our partner, but we 
never fully identified a customer for the product, and thus, we 
ended up selling the company to Sumitomo, a Japanese company.
    If I had had the experience of the NSF I-Corps program, I 
believe we could have identified customers much earlier on and 
grown our vision into a U.S.-based company that could have been 
a leader in organic light emitting diode technology, creating 
hundreds of U.S. jobs.
    At Solexant, we raised over $30 million in venture capital 
funding. This money was focused on developing a thin-film solar 
cell technology and building a manufacturing line in Oregon. 
However, yet again, we failed to identify a customer and value 
proposition for the product that was developed, which 
ultimately led to the manufacturing facility never being built. 
After burning through much of the initial multimillion dollar 
investment, the company was taken over by new management who 
understood that the value that we provided to our companies was 
the low-cost manufacturing process that made the solar cells 
rather than--I'm sorry, to our customers--rather than the solar 
cells themselves.
    If we had the experience of the NSF I-Corps program, I'm 
confident we would have come to the correct product decision 
two years earlier, enabling us to direct the initial $30 
million to ensure U.S. solar industry's leadership in thin-film 
technologies rather than losing much of this market share to 
China.
    The two companies I started after NSF I-Corps resulted in 
us being able to sell commercial product to customers with much 
less time and funding, namely less than $2 million in the case 
of Soliculture and less than $10,000 in the case of the Science 
Academy. The efficiency directly resulted from our many 
conversations with the potential customers and key partners 
that the NSF I-Corps program largely forced us to do. While 
it's too early to know how many jobs Soliculture will generate, 
its pathway to selling commercial product was many years faster 
than my two previous companies.
    Needless to say, I'm convinced that the small cost of the 
NSF I-Corps training pays for itself many times over in 
reducing startups time to market. For startups that receive 
funding through the SBIR or STTR program, which I've also 
received funding from, this also gives U.S. taxpayer money--
this also saves U.S. taxpayer money as it allows the principal 
investigators to use the funding much more efficiently to 
develop a technology that someone is willing to pay for.
    Given my positive experience as a faculty member in the NSF 
I-Corps program, I decided to offer the curriculum to students 
at my university through a summer entrepreneurship academy. 
While only a few of the students going through the program 
actually start companies, the training has proven invaluable to 
students as they seek employment after they graduate. Students 
have come back to tell me that this is the most valuable course 
they took at UCSC and received their job offer because they had 
taken the I-Corps course.
    Understanding how to listen to your customers and make 
changes to a product so that it fulfills their needs is 
important in almost any job but something that academia is very 
bad at teaching students as we find ourselves sometimes stuck 
in the echo chamber of a university.
    I want to conclude with how the program can move forward to 
better benefit students and entrepreneurs. So I'm running out 
of time. I'm going to basically say that I'm a strong proponent 
of I-Corps Go that is expanding our training so that students 
can learn how to talk to VCs, how to form teams, and how to 
understand the legal context behind their startups.
    The other major issue is that the training is largely 
limited to students, faculty, and their mentors, so I'd like to 
see the program open up to our entrepreneurs, many of whom are 
likely to be willing to pay to take the course. I know I would 
have been. Some of our top young entrepreneurs received funding 
through the SBIR/STTR program, so that might be an excellent 
vehicle to expand the offering.
    So, Madam Chairwoman, this completes my testimony, and I'm 
looking forward to your questions.
    [The prepared statement of Dr. Carter follows:]
   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you very much.
    Well, on that note then I think I would like to ask how are 
some--you know, we have community colleges. We also often have 
weekend programs that are adjunct like the Darden School does 
in UVA, so George Mason. Lots of our universities have that 
capacity to do that. How could we implement this program with 
them, and are there any limitations right now to doing that?
    Dr. Carter. Do you want me to address that? Well, I mean, I 
can tell you right now that there's nothing that limits us from 
working with community colleges. I have a lot of community 
colleges in my area that--and I include those students in our 
curriculum, so it just involves building a network and reaching 
out to those colleges, so I don't think there's any limit at 
all.
    Chairwoman Comstock. Or and like--since we're talking 
about----
    Dr. Carter. Right.
    Chairwoman Comstock. --people not even having to be in a 
curriculum but just having the facility where they can go so 
they can get the program.
    Dr. Carter. Right. Yes.
    Chairwoman Comstock. Okay. And, Dr. Chang, did you want 
to----
    Dr. Chang. Sure. And so I kind of alluded to this earlier, 
that we've got this great bench of over a dozen instructors who 
have worked at startups who have this experience that we're 
talking about in teaching I-Corps, and when they're not 
teaching in the official NSF I-Corps cohorts, we put them to 
work to go to other schools in the region or even outside the 
region. And what we've seen is that partly solves this problem, 
so we can offer cohorts on the campus at UVA or wherever else 
to help those--help the teams there.
    But long-term what we really need to do is kind of like 
what NSF does with the national program of train the trainer so 
the somebody at UVA or somebody--actually they have pretty good 
capacity already but some of these schools can develop their 
own people that can continue to teach it more often they know 
their own campuses better. They know what resonates with their 
faculty and what's going to get them to come to increase 
participation as well. So, you know, train the trainer has been 
a centerpiece of the national program, and it's a point of 
emphasis in the regional programs and needs to continue to be 
more of a point of emphasis among regional programs.
    Chairwoman Comstock. And by doing that train the trainer 
program, you really could then have a self-sustaining program 
wherever they've done that because I know at UVA, for example, 
the Darden School makes money for the school is my 
understanding----
    Dr. Chang. Yes.
    Chairwoman Comstock. --so if they're able then to attract 
and people can, you know, go and do that there or other 
universities----
    Dr. Chang. Absolutely.
    Chairwoman Comstock. --it's a money generator that would 
support the whole education program.
    Dr. Chang. Yes, absolutely. And you hit one of the key 
challenges I'll say but it's the--but we're seeing some 
successes in that the universities that can offer this kind of 
training need to figure out a way how they can continue to 
provide it not just as volunteer work.
    So if it can be sustainable, if there's a business model, 
whether it's like Darden's executive education model or even 
partnering with economic development agencies, whether it's 
Virginia Center, CIT, or Maryland TEDCO, the state economic 
development agencies, if they fund some of these programs to--
for these instructors, now, you've got like the self-sustaining 
ecosystem which helps the economic development agencies because 
the money, the grants, the investments they make in their 
companies are going to pay off--be more likely to pay off if 
they've had this I-Corps-like training. So we're starting to 
see some of that, but formalizing that is really critical.
    Dr. Carter. I want--I was going to add one more thing here. 
I mean at UC Santa Cruz we actually started the course before 
we actually had the funding, so I had to come up with a way to 
fund it. And the way we did it is it's actually part of our 
required--it's a course that students can take to fulfill the 
requirement for graduation, so it's--you know, they pay tuition 
and fees. It's called ``Creative'' believe it or not. Its focus 
on--it fills our creative general credit, and so students can 
take it to help them graduate with their degree.
    Chairwoman Comstock. All right. And then as part of sort of 
the whole regional innovation ecosystem, what other places 
could we plug this in? Because I'm thinking--we have throughout 
my district we have sort of startup areas, but what I hear from 
young people who want to leave here and go to California or 
Colorado or someplace where they feel is a little bit more 
startup-friendly, that there's more sort of just like say your 
local chamber or your local county government has sort of 
these, you know, centers where you can go and have that type of 
innovation ecosystem. Is there a way--I mean, there's nothing 
preventing us from plugging that into whatever type of startup 
center or innovation center that you might have in your area, 
right?
    Dr. Chang. Absolutely not. In fact, you know, I think one 
of the really--the real valuable things about doing the 
customer discovery that we've all talked about going to talk to 
customers is sometimes you might find that the only viable 
customer might be in a different location, in which case the 
prudent thing would be to go there, but oftentimes you might 
find there are some customers right in your backyard that you 
never knew about, and it wasn't until you got out of the 
building and talked to them and understood their needs that you 
realize that there's basically this goldmine in your backyard 
that you never really investigated. Absolutely.
    Chairwoman Comstock. Okay. Great. Well, thank you.
    And I now yield to Mr. Lipinski for five minutes.
    Mr. Lipinski. Thank you, Chairwoman.
    I wanted to in some way sort of follow up on that with a 
question of how can this help--how can I-Corps be leveraged 
for, you know, economic revitalization in areas that--you know, 
we're talking about doing this in areas that, you know, are 
already pretty--doing pretty well, especially if you have a big 
university, but how about economically depressed regions of the 
country? How could this have an impact? And I'll start with Mr. 
Blank.
    Mr. Blank. Well, Congressman, I think that's a great 
question. If--but if you remember, not only are there eight 
nodes, there are 86 sites across the country that now teach the 
I-Corps class and methodology. And many of them are in 
communities where they're past clusters, whether it was 
manufacturing or other past 20th-century industries have 
collapsed. And now for the first time this can be a seat around 
this college and university of training entrepreneurs that 
don't have to go to Boston or New York or Silicon Valley to 
actually stay in their local communities and start building 
companies. And as Dr. Chang mentioned, these universities and 
colleges are figuring out how to partner with their own 
regional economic development organizations to actually get the 
capital to scale to the next level. And so what we've started 
to see is I-Corps is kind of the rejuvenation of innovation and 
entrepreneurship in places that historically have just been 
bypassed in the last decade or so, and we're kind of proud of 
this consequence of the program.
    Dr. Tilbury. Can I----
    Mr. Lipinski. Dr. Tilbury?
    Dr. Tilbury. Yes. I would just add that the I-Corps teams 
come from almost every State in the country, so even though the 
nodes are--there's eight of them in 86 sites, as he mentioned, 
there are teams coming from almost every corner of the country, 
and they can take their learning that they had in the I-Corps 
program back to their home district to start their company if 
that's really the right place for it, as was mentioned.
    Mr. Lipinski. Thank you. Dr. Carter, you want to add 
something?
    Dr. Carter. I wanted to say that the University of 
California Santa Cruz it might sound like it's near Silicon 
Valley, but we're actually sitting in the middle of Salinas 
Valley. We have the highest youth crime rate within an hour of 
us. We're also one of the highest poverty areas in California. 
So we're a Hispanic-serving institution, so we're mainly 
servicing those students that are underprivileged and have had 
very difficult circumstances growing up. We have a lot of 
first-generation students in our programs.
    And I would like to say that in terms of diversity, STEM 
diversity, I see more diversity in I-Corps than I do with our 
science and engineering classes. I think that the first-
generation students, the students that don't have the 
privileged backgrounds, realize how important it is for them to 
learn entrepreneurial skills, be able to create their own jobs, 
and so they are very much attracted to those courses, more so 
than the standard STEM students who just think they're going to 
go get a job in Silicon Valley and they're going to be done 
with it, right? So I think that this is a way to actually get 
underrepresented minorities involved in STEM careers.
    Mr. Lipinski. Thank you. I want to ask about the--you know 
I--well, I'll just say obviously, the--one of the strongest 
arguments in favor of I-Corps is it's transformative. You know, 
you have a small amount of government investment in education 
yielding huge results in terms of the ability of participants 
to learn entrepreneurship, attract follow-on funding, hopefully 
achieve their--and some have--certainly achieved their 
commercialization goals. So expanding the program, I want to 
ask Mr. Blank. How do you think that the expanded curriculum 
would be similarly transformative?
    Mr. Blank. Thank you, Congressman. You know, one of the 
things we've now learned over six years is that this program 
does a spectacular job of teaching scientists things they 
thought they could precomputed like who a customer should be 
and how do I price it and where do we sell it. And as--for the 
last--previous 30 years we've discovered, no, you can't 
precompute that without getting out of the building. Now that 
we got them to understand who customers are, we realize that 
the next step is teaching them how to actually raise money and 
build teams and actually turn this into a scalable company. And 
that's after we've kind of raised the bar. We just realized we 
need to raise the bar again. And the NSF has pioneered these 
prototypes of I-Corps Go classes that I think are doing just 
that to actually accelerate these teams to the next step in 
commercialization. And I think this is spectacular for the 
country.
    I should also mention, by the way, this I-Corps curriculum 
has become the gold standard not only in our federal research 
agencies but now in the DOD and intelligence community as well. 
It's now being adopted in almost every agency and across the 
world as well, just an amazing program and kudos to the NSF.
    Mr. Lipinski. Thank you. My time is up. I yield back.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Webster.
    Mr. Webster. Thank you, Madam Chair.
    Mr. Blank, I heard another definition of hypothesis. That 
is a wild guess carried out to two decimal places. But, Dr. 
Tilbury, I had a question. I'm from Central Florida, the 
University of Central Florida. They're one of the sites. And 
are all of the sites universities?
    Dr. Tilbury. Yes, I believe all the sites are universities, 
but they serve the broader population of their region.
    Mr. Webster. So are they usually housed in some--one or 
more colleges of that university or are they housed in a 
separate center or how does it usually work?
    Dr. Tilbury. I think it depends on the university. It could 
be housed in, say, the College of Engineering or the Vice 
President for Research or even a center for entrepreneurship if 
there is one at the university. I don't think there's a 
standard.
    Mr. Webster. So there's no real--there's just a framework 
but not a big----
    Dr. Tilbury. It's a framework, and each university who 
applies to be a site talks about what niche they intend to fill 
with their site and how that will work for them. Maybe Dr. 
Carter could talk about--she has a site at UC Santa Cruz.
    Mr. Webster. Okay. Let me ask you something. Dr. Carter, is 
yours external to the university or a separate entity?
    Dr. Carter. Ours is internal. Ours is actually under the 
division of graduate studies, which means it can represent 
every--all the disciplines equally. But we also work with 
undergraduates, too, even though we're in the graduate studies.
    Mr. Webster. Before you got the grant, did you have a 
similar program or something that would be a cousin to that 
ongoing?
    Dr. Carter. Not exactly. We had some starting pieces of it, 
but we do not have any business school or law school at 
University of California Santa Cruz, so this is our--this is 
basically the training our students get to launch their 
businesses. So the funding really helped us. We wouldn't be 
able to do what we do today without the funding.
    Mr. Webster. So--but if there were some things were working 
that would kind of be a cousin to that, did those remain or did 
you just to begin focusing on----
    Dr. Carter. They remained.
    Mr. Webster. They did?
    Dr. Carter. Yes.
    Mr. Webster. So tell me a little bit about the governance 
of it.
    Dr. Carter. Sure. So in our case we have a--I'm the 
director of the center. We have an executive leadership board, 
which has all the deans from the campus that oversee what we're 
doing, and also we have a faculty advisory board that contains 
faculty and staff that advise our program. And then underneath 
us we run about four different other entrepreneurial sites that 
were kind of the framework, but their centers focus on social 
and creative entrepreneurship, on STEM-based entrepreneurship, 
on art-based entrepreneurship, and we help those three programs 
also, providing them the instructors they need to run their 
courses.
    Mr. Webster. So is the team or teams--I guess you have more 
than one team----
    Dr. Carter. Yes.
    Mr. Webster. --are they led by a faculty member?
    Dr. Carter. No, they are--they're advised by a faculty 
member and a mentor. So I have an open-door policy. Any team 
that wants--I meet with all the teams regularly to give them 
advice to how to move forward. I set them up with mentors that 
they may need to get help. If there's another faculty member 
that I think can help them, I will send them directly to the 
other faculty member or sometimes it's a staff member. So we 
make sure that we meet with them regularly and they get the 
resources they need to get the--move their thing forward.
    Mr. Webster. Dr. Tilbury, is there a cutoff point where, 
okay, there are these teams, they're working on an idea, they 
want to turn it into a business, they want to be entrepreneurs. 
Is there a cutoff point or some way where you decide it'll 
either happen or it won't happen or is that done by money, just 
you can get any money, or what?
    Dr. Tilbury. So the I-Corps training, the formal training 
is about six weeks, and at the end of that six weeks, each team 
should have a decision, yes, we're going to go ahead and 
commercialize the technology or no, it's not ready yet, we need 
to go back to the lab and improve it in order for it to be 
ready or there's really no customer who is interested in this 
so you----
    Mr. Webster. So the team could start all over with a new 
idea or a modified idea?
    Dr. Tilbury. They could absolutely start all over. It 
might--but rather than starting the company and investing a lot 
of money to find out that we've developed this product that 
there's no customer for, it's better to determine that within 
this boot camp, the six-week time frame.
    Mr. Webster. I'm familiar with the University of Central 
Florida a little bit and their program there. It's a pretty 
awesome thing, and they're trying to train entrepreneurs, a 
great thing.
    Dr. Tilbury. Great.
    Mr. Webster. I support it. By the way, they're the only 
undefeated Division I football team in the country. I yield 
back.
    Chairwoman Comstock. Okay. And I now recognize Ms. Esty for 
five minutes.
    Ms. Esty. Thank you, Chairwoman Comstock and Ranking Member 
Lipinski. And I want to thank the four of you for joining us 
today on this really important topic, which I see as critical 
to U.S. competitiveness and to diversification of our STEM 
workforce, and those two things are related. So I want to say 
that I'm probably from Connecticut where accelerate UConn is in 
fact one of these nodes and is already proving to be incredibly 
successful. And in fact I was pulled out by our local contact 
from the Department of Commerce to talk about some of these 
issues and more things we need to do in our State to better 
link the world of work and the world of commerce, as Dr. 
Blank--Mr. Blank talked about, with what's happening in the 
lab.
    So I wanted to--Mr. Blank, you talked about something that 
I think is really important for Americans to understand and 
frankly for a lot of my colleagues to understand the critical 
role that I-Corps is playing in that deep tech. I grew up sort 
of in the Silicon Valley area, and I think there's still a 
lingering assumption here that that's what's happening now in 
Silicon Valley rather than the dramatic change that happened 
with the chase for unicorns and a fast turnaround so that 
without government support not only for basic research but 
government support and help to guide the scientists who are 
engaged in that deeper tech, so, for example, what intersects 
with DARPA, what intersects with other parts of the military. 
Could you expand on that a little bit?
    Mr. Blank. Yes, Congresswoman. That's in fact a great 
insight. You know, in the 20th century, venture capital, that 
is, investors in Silicon Valley and national interests actually 
were pretty well aligned. We invested in medical technology, we 
invested in computers, we invested in things that actually made 
the country better, safer, secure. In the 21st century 
they're--I will contend they're unaligned. Venture capitalists 
can make a ton more money than investing in short-term, you 
know, bitcoin investments or smartphone apps or social media, 
which are great for their investors, but one could argue that 
the money would be better spent on other things like genetic 
editing for healthcare or applications in other places.
    And this un-alignment has really created kind of a gap 
between what gets invested that requires patience and long-term 
vision. And in fact the few agencies in the country that do 
that, one of them is the National Science Foundation that 
invests in what we call deep tech that requires long-term 
investment and patience for basic materials science, basic 
health care at the NIH, et cetera. And I think this Innovation 
Corps program is part of that deep vision, deep patience in the 
long-term investment that just private capital does not do 
anymore.
    Ms. Esty. Thank you. I really appreciate that.
    Dr. Tilbury and Dr. Carter, you should know that actually 
Chairwoman Comstock and I earlier this year had bills signed 
into law Promoting Women in Entrepreneurship Act and really 
wanted to focus a little bit on the particular role and 
importance of something like I-Corps in diversifying our STEM 
workforce and ensuring--because we've found that women in the 
STEM fields and women generally are having more challenges 
making that leap into the entrepreneurial space, fewer mentors, 
less access to capital, and that I-Corps is actually playing a 
really important role. And, Dr. Carter, you talked about the 
difference that made in your own experience.
    Dr. Tilbury, could you expand a little bit more 
systematically of what we've learned because I think Dr. 
Carter's testimony speaks to the reality of what it meant for 
her in getting that training?
    Dr. Tilbury. So absolutely. At the National Science 
Foundation we're absolutely committed to broadening 
participation in all aspects of science and engineering and in 
particular in the I-Corps. So some of the pilot sites that 
we've started are focused on broadening participation. Some of 
them focused on including more women in startup companies; some 
of them focused on including underrepresented minorities or 
even people with disabilities. And they have unique vision into 
what the needs are for women, for disabled people that can 
really have an opportunity to create very successful companies. 
So we feel this is a good investment. It's still a pilot, but 
we're looking for good results to come out of these 
investments.
    Ms. Esty. Dr. Carter?
    Dr. Carter. Yes. You know, I mean, I will say that, you 
know, women are most--are generally attracted to solving 
problems that affect their communities, so I think this is a 
natural fit to bring women into the STEM fields and to get them 
included in our entrepreneurial ecosystem, so I see it--I mean, 
we're trying to hit 50 percent numbers in our programs for 
women entrepreneurs, and I anticipate that we'll hit that.
    Ms. Esty. Thank you. And the last thing I wanted to mention 
again, Mr. Blank, you talked about the hands-on 
entrepreneurship, and I think that is so critical. We've 
learned, for students, hands-on learning is the best. Hands-on 
science learning works better but that--taking that same 
insight and translating it into entrepreneurship I think is 
something we need to remember that I-Corps is championing, and 
we want to support you in any way we can in these endeavors.
    Thank you very much and I yield back.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Marshall for five minutes.
    Mr. Marshall. Yes. Well, good morning. Kind of running back 
and forth between a couple committee meetings, as is usual for 
us, so thank you for your testimony, so proud of what the--what 
you all are doing. One of our jobs in Congress is always to 
figure out what's working well and to reemphasize this, and I 
was able to take the Chairman of this Committee, Chairman 
Smith, to Wichita State University and share with him some of 
the things happening on their innovation campus as well, so 
very proud to see how this is working.
    I would just like to hear a few more positive stories and 
give you all a chance just to share positive stories about how 
this is happening, and maybe just start with Dr. Tilbury and go 
down the line, you know a great real story that you would 
share.
    Dr. Tilbury. So I can tell you the story of one of my 
colleagues, Professor Awtar from the University of Michigan, 
mechanical engineering. So when he started as an assistant 
professor, he got his NSF career award, which is for junior 
faculty, and then he got another basic fundamental research 
award from the Engineering Directorate. And he developed a new 
way to kinematically re-map your hand movements into the edge--
end of an end-effector for remote surgery purely mechanically, 
no electric controls required.
    So he got an I-Corps grant and started a company and then 
got an SBIR and built this company that's building these 
medical devices, very low-cost, very safe, to be used in 
multiple dimensions. And now, I'll be happy to say he's back on 
campus and got another fundamental research award, and so we'll 
see if he--now that this company is launched, we'll see if he 
develops another new technology. We're very excited.
    Mr. Marshall. Well, great. I keep telling everybody that 
innovation can do more to drive the cost of health care down 
than any piece of legislation we can write if the Federal 
Government would just get out of the way.
    Mr. Blank?
    Mr. Blank. Yes, Congressman. I'm going to give you a story, 
probably one that doesn't get told often, and that's about 
failing fast.
    Mr. Marshall. Yes.
    Mr. Blank. One of the great things about the I-Corps 
program is that it's hard to avoid bad news because it's in 
front of your face. Our best example is when we taught the 
class at UCSF, University of California at San Francisco, for 
life sciences the chief of surgery of UCSF said, ``Well, I'll 
set up a team, too, just so I can act as a role model for my 
students.'' And he had an invention that he'd been working on 
for three years in the lab, hernia repair. And Dr. Hobart 
Harris said, ``Well, this will be pretty easy. I'll just get 
out of the building and I'll talk to the other surgeons. I've 
been working on this for two or three years with my co-
surgeons. Obviously, everybody will love this.'' The third week 
of class he comes back and his face is pale. He said, ``No one 
else wants it.'' And in fact at the end of the class he said, 
``You know what, this isn't a viable commercial technology.'' 
And he still, four years after the class, is proselytizing the 
fact that not only can this help you build a company, it could 
also help you not waste years of your time and tens of millions 
of dollars of both government capital and private capital.
    Mr. Marshall. Thanks. Dr. Chang?
    Dr. Chang. So I mentioned the bioengineering class earlier, 
but I'll give another story that also ties into engineering 
so--but starts with research. There's a professor named David 
Tilley in our School of Agriculture, really innovative 
research, and he went through an introductory--introduction to 
I-Corps program that we offered locally, saw, wow, this is how 
I can explore whether I can apply my technology in the 
marketplace and with the national cohort in Texas. That was 
about a year ago. They've launched the company. They've since 
gotten follow-on funding from the Maryland State economic 
development agencies, so all the things you'd like to see.
    But the big sea change for him was also that he wanted to 
apply throughout his entire research portfolio and get his 
other colleagues in the School of Agriculture to also be 
looking for applications and applying at I-Corps. So he's 
actually teaching this in his classes. He teaches a class now 
where he teaches I-Corps principles, and he's applying for an 
NSF grant that is an interdisciplinary addressing--a grant 
addressing multiple areas from technology, but a big emphasis 
is training graduate students. A key part of his proposal is 
training our graduate students in these I-Corps principles so 
that they can learn these and take it forward as well.
    Mr. Marshall. Okay. Thank you. Dr. Carter?
    Dr. Carter. Yes, I want to give an example of an 
undergraduate because we hadn't heard very many undergraduate 
stories yet. And I've had students--my site just got funded 
like this year so it's just started, but we did some pre-I-
Corps classes and I had students through that, so I'll show an 
example. One of them is this guy Sukh Singh who basically had a 
technology where he had--basically was taking kids' 
handwriting, you know, when they were 4 or 5, six years old and 
letting them convert that over to Java code, JavaScript.
    And he went through the program and realized that the 
really big need that was there was that teachers don't know how 
to treat--teach computer programming, right? They have no 
concept of how to do that, especially at the, you know, younger 
ages. However, they had no problem teaching basic math, so what 
he was able to do is pivot his company in order to create a 
product that allowed students--teachers to teach their kids the 
basics of JavaScript programming through math----
    Mr. Marshall. Yes.
    Dr. Carter. --by having them do math work and having them 
create games and objects and artwork. And he was able to--with 
no money invested whatsoever, he's expanded now to I think five 
or six schools in Santa Cruz bringing in $20-30,000 of revenue 
a month now to keep his company supported and is looking at 
growing nationally, and said he did this all just----
    Mr. Marshall. Yes.
    Dr. Carter. --bootstrapped.
    Mr. Marshall. Thanks for sharing your stories.
    Dr. Carter. Yes.
    Mr. Marshall. I yield back.
    Chairwoman Comstock. Thank you. I now recognize Mr. Beyer 
for five minutes.
    Mr. Beyer. Thank you, Madam Chair, and thank you very much 
for introducing us all to this concept and its remarkable 
success.
    Dr. Tilbury, Peter Drucker, the famous business writer, 
said that ``Nothing happens until the sale is made.'' I was 
impressed that this is--you point that this is about--more 
about market failure than technical failure, but it was also 
noted that you said that ``The entrepreneurial lead in that 
three-person team was typically a postdoctoral scholar with a 
deep commitment to investigating the commercial landscape.'' 
I'm trying to think if I've ever known a postdoctoral scholar 
who knew anything about marketing, sales, service, or the like. 
Why is that a particularly good person to be the 
entrepreneurial lead?
    Dr. Tilbury. So thank you for your question. It's usually a 
postdoc or a graduate student who's deeply engaged in the 
technology, so there the person in the team that is most deeply 
understanding of the technology. The faculty advisor has the 
broader perspective of the technology, and then there's an 
entrepreneurial mentor, the third person of this three-person 
team, and it's the entrepreneurial mentor that will help the 
team understand what they need to do to make this technology a 
commercial success. But you need someone on the team who is 
willing to put in the 40, 60, 80-hour weeks to build the 
technology and get it out of the lab, make it ready for 
commercialization.
    Mr. Beyer. And, Mr. Blank, thank you very much for 
providing all the intellectual drive for this whole I-Corps 
movement. You said, ``Part of the big thing is how to hire and 
build teams that know how to sell and market products.'' That 
sounds like all of America or all business in general. How do 
you do that?
    Mr. Blank. Well, I'm going to answer that, but I want to 
answer your first question.
    Mr. Beyer. They're almost the same question.
    Mr. Blank. Yes, but it's really interesting because if you 
think about it, you go, wait a minute, why do we have to train 
those entrepreneurial leads to do this? They should just hire a 
V.P. of sales, and they take the tech and go out and sell it. 
And that's not their skillset; it's someone else's skillset. 
And it turns out that's where we went wrong. We went wrong 
because we assumed that just because they had an idea, you 
could now slap a salesperson on it and sell it. It turns out 
that almost always their initial idea of who to sell it to, how 
to package it up is almost always wrong. And the only people to 
figure out whether it's wrong or right is not a salesperson; 
it's actually the technologist themselves. And we've now 
learned that the initial people who go make the first sales and 
try to understand that are best done by the technologists.
    So it's easier to train a technologist to understand 
customers than it is to train a salesperson to understand deep 
tech. That's the big lightbulb. That's the whole idea here is, 
wait a minute, let's train the scientist. You know, with all 
due respect, business can be figured out quicker than you could 
figure out biotech or some of these arcane sciences. That's the 
key idea about I-Corps. And in fact, once you train them that 
this is nothing more than testing guesses or hypotheses, that's 
what they do in the lab all the time. I don't know if I 
answered your question.
    Mr. Beyer. You did. You remind me that in--I've been 
selling for more than 40 years, and it was discouraging to 
realize that I knew all the math I needed to know by third 
grade to sell.
    Dr. Tilbury, Dr. Carter talked about she'd seen great 
diversity in the I-Corps teams themselves, but there is 
historically huge underrepresentation of women and minorities 
in startups. Silicon Valley is legendary. So do you use this as 
a metric from the National Science Foundation how I-Corps is 
able to expand diversity?
    Dr. Tilbury. Thank you. As I mentioned earlier, NSF is 
absolutely committed to broadening participation in all aspects 
of science and engineering, including in I-Corps, and we have 
funded some pilot sites that are specifically targeted to 
increase the representation of women, underrepresented 
minorities, and people with disabilities in the entrepreneurial 
innovation ecosystem.
    Mr. Beyer. Very cool. And, Dr. Chang, who is not a Dean or 
is a Dean, you talked about pushing scientists to go beyond the 
comfort zone, which is once again the challenge for all of us 
in life. How hard has that been to get people who love to be in 
labs and think deep thoughts to get out there and talk to real 
people on the street?
    Dr. Chang. It's extremely challenging. I mean, you know, 
you can ask any university, the numbers will be about the same, 
but it's a very small number of faculty who actually want to 
start a company. You know, maybe it's five percent, maybe ten 
perhaps but--to actually start the company. But almost all 
faculty want to see what they're doing have an impact. And one 
of the beauties of I-Corps--and Dr. Tilbury kind of talked 
about it with your question related to entrepreneurial lead is 
it doesn't have to be the faculty member that takes this 
forward. The faculty member just has to be supportive of the 
efforts to explore where it can go forward.
    And so if you've got, as Congressman Lipinski mentioned, 
only half of Ph.D. students entering academic fields, what are 
the other half going to do? Well, if they can explore these 
opportunities to find out where can the sale be made, they 
aren't actually necessarily tasked with the ones at the end of 
the day closing the sale, but if they can identify where the 
sales can be made and shape the direction of the technology 
development, I mean, some of our most successful I-Corps 
stories, they're--they went through I-Corps three years ago 
because what they learned fundamentally changed not their core 
expertise but the direction that they were going to apply it. 
And it took a long time to build the technology. And you can 
imagine over three years being slightly off course where they'd 
end up three years later.
    So, you know, I think for faculty just kind of thinking 
about it may not be you, but your research is going to have a 
greater impact and you want to help your students find jobs, 
and if half of them aren't going to be in academia, this is a 
great way to help your students find jobs.
    Mr. Beyer. Thank you very much.
    Chairwoman Comstock. Thank you. And I wanted to ask, do you 
have a percentage of women who are participating in the 
program?
    Dr. Tilbury. I don't have that number at my fingertips, but 
I could get that for you.
    Chairwoman Comstock. Okay. Because I'd be interested in 
that and overall diversity, as well as what is done to recruit 
in particular to help those numbers, to get more in the 
pipeline because I know I've had a young woman's leadership 
program that I've just run informally in the summer, and we've 
had to very aggressively recruit to make sure we are getting 
young women from different communities that maybe their parents 
aren't saying, hey, why don't you do this. You know, and we're 
reaching kids in junior high and high school, so we're really 
trying to get them into a leadership program that opens up to 
some exposure for them to other women leaders and to ideas. But 
we really have to go into particular communities to kind of 
pull them out, and so I just would be interested in what 
methods you might use to enhance that and make sure that they 
are participating in a program like this.
    Dr. Tilbury. So thank you. I think that's one of the 
purposes of these pilot sites that we have that are focused 
specifically on trying to increase the representation of women 
or minorities or disabled people in the entrepreneurship.
    Chairwoman Comstock. Right.
    Dr. Tilbury. So that's their focus.
    Chairwoman Comstock. Good.
    Dr. Tilbury. And we'll look forward to seeing their 
successes.
    Chairwoman Comstock. Okay. And it would just be helpful if 
we could get some of those numbers, too, because--and make 
sure--and best practices that might apply for us in other 
areas, so thank you.
    And I now recognize Mr. Banks for five minutes.
    Mr. Banks. Thank you, Madam Chair. And thanks to each of 
you for being here. This has been an enlightening discussion 
for me, learning more about I-Corps.
    I wonder, though, to start with, Dr. Tilbury, as the 
curriculum has been developed and the program has been 
launched, how can the private sector invest more and take on 
more responsibility for sustaining the program?
    Dr. Tilbury. So thank you. I think there is an opportunity 
for the private sector. Many people who participate in the 
teams, the entrepreneurial mentors come from the private 
sector. Most of the programs are offered through universities, 
and some of them have partnerships with the private sector to 
fund those programs. So I think there's many different 
opportunities. I don't have a specific----
    Mr. Banks. So there are mechanisms for the private sector 
to invest their own funding? That can already occur?
    Dr. Tilbury. I think through the universities would be the 
way to go. Do you have another----
    Dr. Chang. I was just going to add, so the SBIR program, 
for instance, I-Corps has started to be used--actually not 
started--it's been a couple years now it's been incorporated 
into the SBIR phase 1 awardees from NSF, and that's been 
transformational for the program but also, as I understand it, 
there's a phase 2B, a component of that SBIR program where not 
only do you get funding from NSF, but it's a side-by-side 
investment with a private institution. So you're sort of 
meeting halfway because the technology still needs to be 
developed and you're kind of sharing that risk, and if it ends 
up where you think it will, now the private company that was a 
partner in that is going to go all in.
    Dr. Carter. And I can tell you what we do. Our center--
except--the NSF I-Corps site--our center is completely 
privately funded. We get donations from alumni and various 
people in the community who really want to see our students be 
successful and move forward. We also introduced something known 
as the founders' pledge, which basically allows--it's no firm 
commitment but basically says if the students go off and do 
really well and make money that they will commit giving money 
back to the program that we can use to then support future 
students. So I see this being self-supporting.
    Mr. Banks. Mr. Blank?
    Mr. Blank. And if I can, I should maybe circled this back 
to the intent of I-Corps Go. The current I-Corps NSF program 
funds universities and university nodes. The intent of I-Corps 
no is to take this--I-Corps Go is take this great curriculum 
and open it up to the larger community. And that would allow 
funding to go directly from private capital entities into these 
startups, which not necessarily would be deep tech. Remember, 
the NSF program is essentially for these orphaned technologies 
that have a hard time crossing this ditch of death between 
government basic science funding and private capital who wanted 
to see something more advanced. I-Corps Go would actually 
expand it to a much greater community with a proven curriculum 
that actually works well.
    Mr. Banks. Okay. So, do you think, in light of that, do you 
think that startup companies would see value in spending their 
own capital, their own money, to go through the training if it 
were available to them?
    Dr. Tilbury. I'd say absolutely. That's what Dr. Carter 
said. She would have paid for it.
    Dr. Carter. I would have paid for it, yes, no problem.
    Mr. Banks. Okay. So we all agree with that? Okay. Thank 
you. I yield back.
    Chairwoman Comstock. Thank you. And I now recognize Ms. 
Bonamici for five minutes.
    Ms. Bonamici. Thank you, Chairwoman Comstock, and thank you 
to the witnesses. I regret I was not able to hear you deliver 
your testimony. There's an Education Committee happening at the 
same time, and I'm trying to be at more than one place at once. 
But I did read the testimony with interest.
    I represent northwest Oregon, and we have certainly a lot 
of tech startups and accelerators and a lot of incubators, and 
this is a really interesting topic to me.
    I wanted to start, Dr. Tilbury, you cited some data in your 
testimony about companies that were formed and then funding for 
teams that have been through the I-Corps curriculum. So what is 
the full extent of the data that you have on outcomes? Are 
there data that you're in the process of collecting so that we 
could know what metrics we should be using for a full 
understanding of the return on investment in I-Corps?
    Dr. Tilbury. So thank you. There is absolutely a data 
collection ongoing. I believe through the AICA Act we have a 
biannual reporting to Congress, so sometime within a year--I 
think January of 2019. Correct. So we are collecting data as 
much as we can to understand.
    Many of the startups that are coming out of NSF-funded 
basic research are in this deep technology area that Mr. Blank 
mentioned, and they might take five or even ten years to show 
the results of their company. It's not just writing software. 
You have to build something and maybe build a manufacturing 
plant to make it. And so these timelines are much longer than 
you might expect to see in something that's starting an app for 
a smartphone.
    Ms. Bonamici. Of course. Right. Thank you. So to the whole 
panel, you know, our U.S. universities continue to lead the 
world in basic research and in education. I just want to note, 
as we're in the midst of discussion about the tax reform bills 
that there are provisions that are of great concern to our 
universities, particularly the--treating tuition waivers has 
taxable income. Our universities are very, very concerned about 
that, and I hope that when the conference committee meets, they 
get the message that that's going to set us back as a leader in 
innovation and research.
    In some cases, universities can be slow to change and adapt 
to emerging challenges and opportunities. I came from our state 
legislature and, you know, I know that some of that happens. So 
where do things stand now with respect to the sort of cultural 
and institutional obstacles to expanding the entrepreneurial 
culture at universities, and how has I-Corps helped, you know, 
model some of the changes that--even in the last few years 
where lessons could be learned at the university level and what 
steps can federal agencies and institutions themselves take to 
continue to expand entrepreneurship without compromising the 
critical mission in research and education?
    Mr. Blank. If----
    Ms. Bonamici. I'll start with Mr. Blank.
    Mr. Blank. If I can, I think that's a great question, and 
the insight I'll offer with a smile is that in universities, I-
Corps is typically offered in the engineering school, not the 
business school, which is a big idea. You know, one would have 
thought that business schools would have led with this type of 
entrepreneurial education, but in fact business schools 
historically have been focused on large corporations and the 
execution of a current business model, and that is how to make 
current corporations better. And so for 100 years that's what 
business schools did.
    But this idea of innovation and entrepreneurship in the 
engineering school was actually a new idea, and in fact is kind 
of the breakthrough that's happened in the last six years with 
I-Corps is that the engineering is actually now leading, the 
thought leaders in the country for innovation entrepreneurship.
    Dr. Chang. Also I'd like to add to that. So what's--my job 
at the University of Maryland five years ago--I was appointed 
by the President to aspirationally engage all 37,000 of our 
students in innovation entrepreneurship, and that's an 
impossible task. But----
    Ms. Bonamici. But a good challenge.
    Dr. Chang. But a good challenge. And I'll say that the 
leans--or the I-Corps principles that we teach at startups, 
those are exactly the same methods and principles I've used in 
that mission. And that's the only way to succeed because at the 
end of the day we teach our startups you have to figure out 
where people spend their time and their money and you need to 
go to where they are and offer a better solution in the way 
that they're doing things because it's hard to change behavior. 
That's even more so at colleges and universities.
    And so the places where students are--let's focus on the 
students for the moment--they're taking general education 
courses. They're taking the prereqs for their major. They're 
taking their required upper-level junior- and senior-level 
courses, so embedding it--and initially, whether it's in 
engineering or even in other majors as we've started to do, 
embedding these kinds of methods and principles in those 
courses are the way to spread it because going and asking for 
more funding or more volunteers or more whatever is not going 
to get you as far.
    And the same thing is true on the faculty side, and faculty 
are motivated by getting tenure, they publish in journals, 
respected journals, and go to conferences, so we need to weave 
in innovation entrepreneurship into things they have to do 
along the path.
    Ms. Bonamici. Thank you. And in my remaining few seconds I 
just want to mention that this Congress and the last Congress 
passed the Every Student Succeeds Act, which is the rewrite of 
No Child Left Behind, so at the K-12 level there are attempts 
being made to make sure that students get a more well-rounded 
education, and hopefully, we are educating before they get to 
college and universities, students to be more creative and 
innovative.
    And we've seen that in schools that, for example, are 
adopting STEAM rather than STEM and integrating the arts and 
making sure that people can think creatively and communicate 
about what they're creating. So hopefully, when students get to 
colleges and universities, they will be more able to have that 
well-rounded approach and communicate what they are in fact 
inventing. So there are efforts to start earlier to make sure 
that we have a more creative and innovative workforce.
    So thank you, and I yield back the balance of my time.
    Chairwoman Comstock. Thank you. And I thank our very 
esteemed and knowledgeable witnesses for their testimony, for 
your experience, for your wisdom and how we can really make 
this innovative field grow, so it's very exciting and look 
forward to continuing to work with you.
    The record will remain open for two weeks for additional 
written comments and written questions from Members, and this 
hearing is now adjourned.
    [Whereupon, at 11:31 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
